                          CLOSEOUT FOR MOO030014

On 13 March 2000, a program officer' brought an allegation of misconduct in science to
our attention. The complainant2received a NSF proposal submitted by subjects 1,2, and
33 to review. He declined to review the proposal, however, alleging these subjects failed
to cite him as the source of some of the data in the proposal. In addition, the complainant
alleged that subjects 1, 2, 3, 4, 5, and 64 used these same data without permission in a
manuscript submitted for publication.5 He wrote to subjects 1, 2, and 3 about his
concerns.

After receipt of the complainant's letter, the subjects withdrew the proposal and revised
the draft manuscript, removing unpublished data and citing the complainant more
thoroughly. The subjects offered to make the complainant a co-author, but he declined.
The complainant said that he had learned that subjects 1 and 2 had resubmitted the
proposal and he suspected his unpublished data had been removed and the recent
publication with other data cited appropriately.

In our conversation with the complainant, he described his concerns as issues between
collaborators that he thought had been resolved. As part of an ongoing collaboration, the
complainant explained that he shared samples and data with subjects 1 and 2. The
complainant explained that he thought data shared prior to publication should be treated
as privileged information. Although subjects 1, 2, and 3 acknowledged him in the
proposal, the complainant thought it read as if subject 1, the lead PI, had done more work
than he actually had. In addition, he said that some of the data used in the proposal were
recently              but not cited appropriately. The complainant also said that when
subject 1, a young scientist, wrote the proposal he may not have been aware of the
complainant's recent publication that contained some of these data.

We observed that the first NSF proposal did contain references to the complainant for the
data. It did not contain a reference to the publication mentioned by the complainant. The




                                      Page 1 of 2                               Moo-14
                           CLOSEOUT FOR MOO030014

resubmitted proposal7 contained significantly more citations and references to the work
of the complainant and contained no unpublished data. Although we did not receive a
copy of the manuscript, the published article contained numerous references to the
complainant.

On the one hand the subjects should have been more careful in citing the source of the
data used in the proposal, both published and unpublished. On the other hand, the
subjects and the complainant were part of a collaborative effort, one that had shared
samples and data for many years. Once the subjects realized the complainant was upset
about the proposal and the manuscript, they corrected them. Although the subjects
should have been more diligent in their reporting and citing of data in the proposal and
the manuscript, in this case, it does not rise to the level of misconduct in science.

This case is closed and no further action will be taken.   ,




cc: Integrity, IG




                                       Page 2 of 2
